U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Abbvie Inc., et al. v. Federal Trade Commission,
S.Ct. No. 20-1293

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 18,
2021, and placed on the docket on March 18, 2021. The government’s response is due on April
19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1293
ABBVIE INC., ET AL.
FEDERAL TRADE COMMISSION

ILANA HOPE EISENSTEIN
DLA PIPER LLP (US)
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 4900
PHILADELPHIA, PA 19109
215-656-3300
ILANA.EISENSTEIN@DLAPIPER.COM
ELAINE J. GOLDENBERG
MUNGER, TOLLES & OLSON LLP
601 MASSACHUSETTS AVE., NW
SUITE 500 EAST
WASHINGTON, DC 20001
WILLIAM F. LEE
WILMER CUTLER PICKERING HALE AND
DORR LLP
60 STATE STREET
BOSTON, MA 02109
617-526-6000
WILLIAM.LEE@WILMERHALE.COM
MELINDA F. LEVITT
FOLEY & LARDNER, LLP
3000 K STREET, NW
WASHINGTON , DC 20007

CAROL A. SZURKOWSKI
COVINGTON & BURLING LLP
850 TENTH STREET,NW
WASHINGTON, DC 20001
202-662-6000
CSZURKOWSKI@COV.COM
SETH P. WAXMAN
WILMER CUTLER PICKERING HALE AND
DORR LLP
1875 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-663-6800
SETH.WAXMAN@WILMERHALE.COM
JEFFREY I. WEINBERGER
MUNGER, TOLLES & OLSEN LLP
350 SOUTH GRAND AVENUE
LOS ANGELES , CA 90071
213-683-9100
JEFFREY.WEINBERGER@MTO.COM
ALYSON COX YATES
WHITE & CASE LLP
701 THIRTEENTH STREET, NW
WASHINGTON, DC 20005-3807
202 729 2483
ALYSON.COX@WHITECASE.COM

